   November 7, 2003




Financial Management

Reliability of Construction-in-Progress
in the U.S. Army Corps of Engineers,
Civil Works, Financial Statements
(D-2004-017)




              Department of Defense
          Office of the Inspector General
Quality               Integrity       Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit of the Audit Followup and
  Technical Support Directorate at (703) 604-8937 (DSN 664-8937) or fax (703)
  604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                    ODIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General of the Department of Defense
                          400 Army Navy Drive (Room 801)
                              Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling (800)
  424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
  identity of each writer and caller is fully protected.




Acronyms

CEFMS                 Corps of Engineers Financial Management System
CIP                   Construction-In-Progress
COEMIS                Corps of Engineers Management Information System
FMR                   Financial Management Regulation
GAAP                  Generally Accepted Accounting Principles
PP&E                  Property, Plant, and Equipment
USACE                 U.S. Army Corps of Engineers
          Office of the Inspector General of the Department of Defense
Report No. D-2004-017                                                 November 7, 2003
   (Project No. D2003FJ-0045)

          Reliability of Construction-in-Progress in the U.S. Army
          Corps of Engineers, Civil Works, Financial Statements

                                Executive Summary

Who Should Read This Report and Why? DoD civil service and U.S. Army
uniformed officers who use or are involved in the preparation of the financial reports
required by the Chief Financial Officers Act should read this report. The report discusses
the reliability of the Construction-in-Progress balance reported in the U.S. Army Corps of
Engineers, Civil Works, FY 2003 and 2002 Comparative Consolidated Financial
Statements.

Background. The audit was performed to meet the requirements of Public Law 101-576,
the “Chief Financial Officers Act of 1990,” November 15, 1990, as amended by Public
Law 103-356, the “Federal Financial Management Act of 1994,” October 13, 1994. The
U.S. Army Corps of Engineers uses the Construction-in-Progress account to accumulate
labor, material, and overhead costs for real property construction projects. Upon
completion, the constructed property is either placed in service by the U.S. Army Corps
of Engineers or transferred to another Federal or non-Federal agency that shared a
portion of the costs. For FY 2002, General Property, Plant, and Equipment was the most
significant asset reported on the U.S. Army Corps of Engineers, Civil Works, Financial
Statements. Construction-in-Progress comprised $10.0 billion (27 percent) of the
$36.9 billion FY 2002 General Property, Plant, and Equipment balance at net book value.
The FY 2002 ending Construction-in-Progress balances represented the beginning
balances for the FY 2003 financial statements. To evaluate the Construction-in-Progress
beginning balance, we visited and gathered information from 38 U.S. Army Corps of
Engineers locations for a statistical sample of 500 asset items valued at $5.8 billion.

Results. The U.S. Army Corps of Engineers materially overstated its Construction-in-
Progress assets. We projected that the $10.0 billion Construction-in-Progress beginning
balance for the U.S. Army Corps of Engineers, Civil Works, FY 2003 Principal Financial
Statements was overstated by $4.3 billion. In addition, the U.S. Army Corps of
Engineers reported Construction-in-Progress assets with negative balances totaling $41
million. Continued material misstatement of Construction-in-Progress will preclude the
U.S. Army Corps of Engineers from gaining a favorable audit opinion on its financial
statements. The U.S. Army Corps of Engineers should correct all negative balances,
remove all costs related to expense-type events and completed projects from the
Construction-in-Progress account, and issue revised guidance. Additionally, the
U.S. Army Corps of Engineers should improve audit trails for Construction-in-Progress
assets and disclose unsupported amounts (see finding A for details on the finding and
recommendations).
The U.S. Army Corps of Engineers misreported costs relating to non-Federal cost share
projects as Construction-in-Progress. As a result of this deficiency, we projected that the
$10.0 billion Construction-in-Progress balance for the FY 2003 U.S. Army Corps of
Engineers Financial Statements was overstated by $7.8 billion when combined with the
deficiencies for Federal cost share items in finding A of this report. By capitalizing
(recording and carrying forward expenditures for realization of benefits in one or more
future periods) costs for non-Federal cost share projects as Construction-in-Progress, the
U.S. Army Corps of Engineers significantly overstates the total assets and net position
and understates current period expenses reported on the U.S. Army Corps of Engineers
financial statements. The U.S. Army Corps of Engineers should expense all costs related
to non-Federal cost share projects (see finding B for details on the finding and
recommendation).

We identified material management control weaknesses related to the financial reporting
of Construction-in-Progress. All of the recommendations in this report, if implemented,
will improve the accuracy and reliability of U.S. Army Corps of Engineers financial
reporting of Construction-in-Progress. A copy of the report will be provided to the senior
official responsible for management controls.

Management Comments and Audit Response. The Commander, U.S. Army Corps of
Engineers concurred with the findings and recommendations. The Commander agreed to
make a statement-level adjustment to the FY 2003 financial statements for costs related
to non-Federal cost share projects and fish mitigation studies. He also agreed to update
U.S. Army Corps of Engineers capitalization guidance, improve audit trails in the Corps
of Engineers Financial Management System, and issue document retention policy for
source data supporting Construction-in-Progress values. However, the Commander did
not agree to expense costs related to bank stabilization work and stated that it warrants
capital asset treatment. We do not agree that bank stabilization work results in a capital
asset for the U.S. Army Corps of Engineers because it represents maintenance of existing
waterways. We request that the Commander, U.S. Army Corps of Engineers provide
management comments on the final report by January 6, 2004. See the Finding sections
of the report for a discussion of management comments and the Management Comments
section of the report for the complete text of the comments.

Management Actions. During the audit, the Commander, U.S. Army Corps of
Engineers took numerous corrective actions to improve the accuracy of the Construction-
in-Progress account (see finding A for a complete discussion of the management actions).




                                             ii
Table of Contents

Executive Summary                                                        i

Background                                                              1

Objectives                                                              1

Findings
     A. Financial Reporting of CIP                                       2
     B. Financial Reporting of Non-Federal Cost Share Projects          13

Appendixes
     A. Scope and Methodology                                           17
         Management Control Program Review                              19
         Prior Coverage                                                 19
     B. Breakout of 500 Statistical Sample Items by Activity Reviewed   20
     C. Report Distribution                                             21

Management Comments
     U.S. Army Corps of Engineers                                       23
Background
    The audit was performed to meet the requirements of Public Law 101-576, the
    “Chief Financial Officers Act of 1990,” November 15, 1990, as amended by
    Public Law 103-356, the “Federal Financial Management Act of 1994,”
    October 13, 1994. The U.S. Army Corps of Engineers (USACE), Civil Works,
    reports General Property, Plant, and Equipment (PP&E) as a line item on the
    financial statements. For FY 2002, PP&E was the most significant asset category
    on the USACE financial statements, reported at a net value of $36.9 billion. The
    USACE uses the Construction-in-Progress (CIP) account to accumulate labor,
    material, and overhead costs for real property construction projects. Upon
    completion, the constructed property is either placed in service by USACE or
    transferred to another Federal or non-Federal agency that shared a portion of the
    costs. CIP represented $10.0 billion (27 percent) of the PP&E reported on the
    FY 2002 USACE Principal Financial Statements. The FY 2002 ending balances
    represent the beginning balances for the FY 2003 financial statements.

    The USACE Civil Works mission includes: developing and managing the
    nation’s water resources; protecting, restoring, and managing the environment;
    disaster response and recovery; and providing engineering and technical services
    to Federal entities, state and local governments, private firms, and international
    organizations. While performing its mission, USACE capitalizes as CIP all costs
    associated with the initial construction of a capital asset as well as any addition
    and/or betterment to an existing capital asset. The USACE capitalizes General
    PP&E assets at historical acquisition cost plus capital improvements when an
    asset has a useful life of 2 or more years, and when the acquisition cost equals
    $1 for real property and $25,000 for personal property.

    The USACE uses the Corps of Engineers Financial Management System
    (CEFMS) for the financial reporting of CIP. During FY 1998, USACE completed
    the deployment of CEFMS to all its divisions, districts, centers, laboratories, and
    field offices. CEFMS replaced the Corps of Engineers Management Information
    System (COEMIS).


Objectives
    Our overall audit objective was to determine the reliability of the USACE, Civil
    Works, CIP assets as presented in the General PP&E line item in the FY 2002 and
    2001 comparative consolidated financial statements and whether the financial
    statements were prepared in accordance with Generally Accepted Accounting
    Principles (GAAP). We also reviewed the management control program as it
    related to the audit objective. The USACE was unable to provide audit-ready
    evidential material in time for us to complete the audit. Therefore, we continued
    our review based on agreed-upon procedures to establish beginning balances for
    the FY 2003 financial statements. See Appendix A for a discussion of the scope
    and methodology, our review of the management control program, and prior
    coverage related to the objectives.

                                         1
            A. Financial Reporting of CIP
            The USACE materially overstated CIP assets. The CIP assets were
            overstated because USACE activities:

                    •   erroneously capitalized expense-type events as CIP,

                    •   did not transfer costs for completed construction projects out of
                        CIP in the proper accounting period, and

                    •   could not properly reconcile CIP costs maintained in CEFMS
                        to originating source data.

            As a result of these deficiencies, we projected that the $10.0 billion CIP
            beginning balance for the USACE, Civil Works, FY 2003 Principal
            Financial Statements was misstated by $4.3 billion. In addition, the
            USACE reported CIP assets with negative balances totaling $41 million.
            Continued material misstatement of CIP will preclude USACE from
            gaining a favorable audit opinion on its financial statements.


CIP Financial Reporting Criteria
     Generally Accepted Accounting Principles. The GAAP for the financial
     reporting of PP&E is provided in the Federal Accounting Standards Advisory
     Board’s Statement of Federal Financial Accounting Standards No. 6, “Accounting
     for Property, Plant, and Equipment,” June 1996. The GAAP define PP&E as
     tangible assets that meet all of the following criteria: have an estimated useful
     life of 2 or more years, are not intended for sale in the ordinary course of
     business, and are intended to be used or available for use by the entity.
     Constructed PP&E is required to be recorded as CIP until placed in service.

     The GAAP define Federal tangible assets as items owned by the Federal
     Government, which would have probable economic benefits that can be obtained
     or controlled by a Federal Government Entity. The GAAP define capitalization
     as recording and carrying forward expenditures for realization of benefits in one
     or more future periods. Expenses are defined as an outflow or depletion of assets
     during a period from providing goods, rendering services, or carrying out other
     activities related to an entity’s programs and missions, the benefits from which do
     not extend beyond the present operating period.

     DoD Accounting Policy for CIP. The DoD policy for the financial reporting of
     CIP is provided in DoD 7000.14-R, the DoD Financial Management Regulation
     (FMR), volume 4, chapter 6, “Accounting Policy and Procedures – Property,
     Plant & Equipment,” August 2000. The DoD FMR defines general PP&E as
     tangible assets that meet all of the following criteria: have an estimated useful
     life of 2 or more years; are not intended for sale in the ordinary course of
     business; are intended to be used or available for use by the entity; and have an
     initial acquisition cost, book value, or fair market value that equals or exceeds the
     DoD capitalization threshold. For a constructed General PP&E asset, the cost to
                                           2
    construct the asset shall be recorded as CIP until the asset is completed and
    available for use, whether or not actually placed in use at that time. According to
    the DoD FMR, the available-for-use date is not dependent on whether the
    constructed asset has been officially transferred or whether final payment has
    been made and the contract closed out. When the constructed asset is available
    for use, DoD policy requires the balance in the CIP account to be transferred to
    the appropriate General PP&E account. The DoD FMR definition of PP&E is
    consistent with GAAP.

    USACE Accounting Policy for CIP. The USACE policy for the financial
    reporting of CIP is provided in USACE memorandum, “Revised Capitalization
    Guidance for Civil Works Personal Property,” September 29, 1997. The USACE
    policy requires that all costs associated with the initial construction of a capital
    asset and all costs associated with the construction of an addition and/or
    betterment to an existing capital asset will be capitalized as CIP. The policy
    provides the following examples of costs that should be capitalized as CIP: land
    acquisition costs, relocation costs, engineering and design costs, supervision and
    administration costs, and actual contract and in-house construction costs. The
    policy requires expensing costs for construction-related activities that do not
    result in the creation of a capital asset, including related engineering and design
    and supervision and administration costs. The USACE policy provides the
    following examples of expense-type activities that should not be capitalized as
    CIP: beach replenishment; excavation or dredging of channels in existing
    waterways; excavation or dredging of navigation ports and harbors; removal of
    trees, brush, or debris in existing waterways; Section 202 non-structural activities
    (flood protection measures provided under the authority of Section 202 of Public
    Law 96-367); reconnaissance studies; special project reports; and feasibility
    studies (unless legislatively directed to be capitalized as CIP). USACE policy
    requires that General PP&E assets be capitalized at historical acquisition cost plus
    capital improvements when an asset has a useful life of 2 or more years, and when
    the acquisition cost equals $1 for real property and $25,000 for personal property.


CIP Assets Reviewed
    USACE provided a universe of CIP assets extracted from CEFMS on
    September 30, 2002. The CIP universe reconciled to the corresponding trial
    balance for the FY 2002 financial statements. The CIP assets each represented
    the accumulation of capitalized CIP costs identified by a unique CEFMS work
    item code and/or funding account number. We segregated the universe into CIP
    assets with positive and negative values. We considered all negative balance
    items as errors because assets should not have negative balances. We reviewed a
    statistical sample of 500 positive-value CIP assets and a non-statistical sample of
    21 negative-value CIP assets.

    CIP Assets with Positive Values. We selected a statistical sample of 500 CIP
    assets valued at $5.8 billion from the positive-value universe of 17,801 CIP assets
    valued at $10.2 billion. The 500 CIP assets were located at 38 USACE activities.
    The statistical sample was developed to project the results at the aggregate level
    only. However, we did summarize the results of the 500 statistically sampled

                                         3
     items by audit conclusion and as supported or unsupported. The statistically
     sampled CIP assets each could represent a number of separable asset elements.
     Therefore, a statistically sampled CIP asset could have portions that were
     supported, unsupported, and misclassified. CIP amounts that were not fully
     supported were considered as misstatements. Table 1 shows a summary of the
     audit results for the 500 statistically sampled items. See Appendix A for details
     on the statistical sampling plan and results. See the table in Appendix B for a
     breakout of the 500 sample items and CIP value by USACE activity reviewed.



                 Table 1. Audit Results for 500 Statistical Sample Items
                                     ($ in billions)
                                             No.     Amount     Amount                           Sample
                Audit Conclusion            Items Supported Misstated                            Value
     Fully Supported1                         166       $0.929     $0                             $0.929
     Expense-Type Events                      104        0          0.792                          0.792
     Completed Projects                         79       0.082      0.674                          0.756
     Part or All Unsupported                  151        2.155      1.195                          3.350
      Total                                               500         $3.166        $2.661        $5.827
     1
         Fully supported only includes the existence of source documentation to support CIP values in
         CEFMS for contract and USACE in-house costs not involving labor. Our scope was limited in
         that we did not physically verify the existence of the CIP assets and we did not validate labor,
         overhead, or capital interest calculations.


     CIP Assets with Negative Values. Our review of the CIP universe provided by
     USACE showed 129 CIP assets with negative balances totaling $41 million. For
     the USACE activities already selected for review as part of the statistical sample,
     we also selected the CIP assets with large negative balances for review. We non-
     statistically selected a sample of 21 CIP assets with negative balances at
     21 USACE activities.


Capitalization of Expense-Type Events
     USACE activities were capitalizing expense-type events as CIP. For 104 sample
     items, CIP values totaling $792 million involved expense-type events that were
     improperly capitalized. The expense-type events involved dredging and widening
     of existing waterways, bank stabilization work, reimbursements to local sponsors,
     fish mitigation programs, studies, other miscellaneous expense-type events, and
     beach nourishment. Table 2 shows a breakout of the expense-type events. The
     DoD FMR states that if events result in the creation of capital assets, they should
     be recorded as such. These expense-type events do not result in the creation of
     capital assets and should be expensed when incurred rather than be capitalized as
     CIP.



                                                   4
                    Table 2. Breakout of Misclassified CIP

                                                      Misstated CIP Value
   Expense-Type Event          No. Items                 (in millions)
Dredging                          33                          $447
Bank Stabilization                17                           175
Reimbursements                    13                            74
Fish Mitigation Programs          10                            45
Studies                           12                            18
Miscellaneous                     13                            17
Beach Nourishment                   6                           16
 Total                             104                        $792


Dredging and Widening of Existing Waterways. USACE activities did not
comply with existing USACE policy and inappropriately capitalized costs relating
to the dredging of existing waterways as CIP. For 33 sample items,
approximately $447 million of dredging costs were capitalized. Dredging
involves the removal of mud and/or rocks in order to widen or deepen an existing
waterway. This event does not result in the construction of a capital asset. For
example, the USACE Los Angeles District capitalized dredging costs related to
the Los Angeles Harbor Project for four sample items valued at $176 million.
The project involved the dredging of the Los Angeles Harbor, an existing
waterway, and associated costs that should have been expensed when incurred.

Bank Stabilization. USACE activities inappropriately capitalized costs for
stabilizing the banks of existing waterways as CIP. For 17 sample items,
approximately $175 million of bank stabilization costs were capitalized. Bank
stabilization involves fortifying the banks of existing waterways through the use
of rocks (rip rap) or concrete mats (revetments). This event represents the
maintenance of existing waterways and does not result in the construction of a
capital asset. For example, the USACE Chicago District capitalized bank
stabilization costs related to the Chicago Lake Shore Drive Preservation Project
for four sample items valued at $56 million. The project involved placing
concrete and steel revetments along the lakeshore to prevent erosion and protect
the nearby streets. The bank stabilization costs should have been expensed when
incurred. Existing USACE policy did not specifically identify bank stabilization
work as an expense-type event.

Reimbursements to Local Sponsors. USACE activities inappropriately
capitalized reimbursements to local sponsors for work completed as CIP. For
13 sample items, approximately $74 million of CIP costs involving sponsor
reimbursements were capitalized. The work completed by the local sponsor did
not result in the construction of USACE capital assets. For example, the USACE
Sacramento District capitalized sponsor reimbursements related to the Natomas
Flood Control Project for a sample item valued at $15 million. The Defense
Appropriation Act for FY 1993 authorized construction of the Natomas Flood
Control Project as defined by a 1991 USACE feasibility report. However, the Act
authorized the local sponsor (Sacramento Area Flood Control Agency) to

                                    5
construct and receive reimbursement for the Federal share of the project costs.
Although USACE was not involved in the construction, the Sacramento District
capitalized $15 million reimbursed to the local sponsor as USACE CIP. The
reimbursed costs should have been expensed when incurred. Existing USACE
policy did not specifically identify reimbursements to sponsors for completed
work as an expense-type event. However, USACE Headquarters provided
informal guidance to the Pittsburgh District requiring that reimbursements to
sponsors for completed work be expensed when incurred.

Fish Mitigation Programs. USACE activities inappropriately capitalized costs
for fish mitigation programs as CIP. For 10 sample items, approximately
$45 million of invalid CIP costs involving fish mitigation programs were
capitalized. Fish mitigation programs involve lessening (mitigating) the impact
of USACE projects on fish habitats and generally do not result in the construction
of a capital asset. For example, the USACE Portland District capitalized fish
mitigation program costs related to the Columbia River Fish Mitigation Program
for seven sample items valued at $32 million. The costs primarily involved
mitigation studies on juvenile fish passage and survival through USACE dams.
The fish mitigation program costs should have been expensed when incurred.
Existing USACE policy did not specifically identify fish mitigation programs as
an expense-type event.

Studies. USACE activities did not comply with existing USACE policy and
inappropriately capitalized costs relating to various studies (feasibility,
environmental impact, etc.) as CIP. For 12 sample items, approximately
$18 million of study costs were capitalized. The study costs did not involve the
construction of a capital asset. For example, the USACE New York District
capitalized study costs for three sample items valued at $15 million. The studies
involved the Green Brook Upper Basin General Investigative Study, the
Hackensack River Basin Flood Control Study, and the Hoosic River
Congressional Feasibility Study. The studies involved costs that should have
been expensed when incurred.

Other Miscellaneous Expense-Type Events. USACE activities inappropriately
capitalized other miscellaneous expense-type events as CIP. For 13 sample items,
approximately $17 million of costs involving other miscellaneous expense-type
events were capitalized. These events did not result in the construction of
USACE capital assets and included Section 202 non-structural work,
environmental monitoring, costs to attend conferences unrelated to the
construction of capital assets, and other miscellaneous expense-type events.

Beach Nourishment. USACE activities did not comply with existing USACE
policy and inappropriately capitalized costs relating to the beach nourishment as
CIP. For six sample items, approximately $16 million of beach nourishment costs
were capitalized. Beach nourishment involves the replenishment of sand levels
on eroded beaches. This event does not result in the construction of a capital
asset. For example, the USACE New York District capitalized beach
nourishment costs related to the Fire Island Inlet project for three sample items
valued at $16 million. The project involved reformulation studies to determine
the replenishment rate and the restoration of sand dunes for Barrier Island, which
is located between the Shinecock and Moriches inlets on Long Island. The

                                    6
    project includes approximately 83 miles of coastal beach protection and
    restoration and is categorized as a storm damage reduction project. The beach
    nourishment work involved costs that should have been expensed when incurred.


Transfer of Completed Projects
    USACE activities did not transfer costs for completed construction projects out of
    the CIP account in the proper accounting period. For 79 sample items, CIP values
    totaling $674 million related to projects that were completed prior to
    September 30, 2002. The costs for the completed assets should have been
    transferred out of the CIP account. For the purposes of our audit, we developed
    three categories for the completed items: physically complete and sponsor
    maintained, physically and financially complete, and physically complete and
    USACE maintained.

    Physically Complete and Sponsor Maintained. Approximately $467 million of
    invalid CIP costs related to assets that were physically completed and sponsor
    maintained prior to September 30, 2002. This deficiency involved 47 statistically
    sampled items. For example, a funded work item at the New England District
    contained $33 million of CIP costs for the Town Brook Local Flood Control
    Project. The funded work item originated in COEMIS and included costs for
    multiple phases of the project. Approximately $21 million of the CIP costs
    related to the second phase of the project, which was the construction of the Town
    Brook Tunnel. The Town Brook Tunnel was completed in 2001 and turned over
    by an official USACE letter to the local sponsor for operation and maintenance in
    January 2002. However, the costs to construct the tunnel remained in CIP on
    September 30, 2002. The costs for the completed asset should have been
    transferred out of the USACE CIP account upon completion and turnover to the
    local sponsor.

    Physically and Financially Complete. Approximately $129 million of invalid
    CIP costs related to assets that were physically and financially completed prior to
    September 30, 2002. This deficiency involved 19 statistically sampled items. For
    example, a funded work item at the New Orleans District contained $27 million
    of CIP costs for the Mississippi River Gulf Outlet Project. The Mississippi River
    Gulf Outlet is a 76-mile manmade waterway that extends from New Orleans to
    the Gulf of Mexico. The Mississippi River Gulf Outlet project was completed in
    1968. However, related costs remained in CIP on September 30, 2002. The costs
    for the completed project should have been transferred out of the CIP account
    upon physical and financial completion.

    Physically Complete and USACE Maintained. Approximately $78 million of
    invalid CIP costs were related to USACE assets that were physically completed
    prior to September 30, 2002. This deficiency involved 13 statistically sampled
    items. For example, three sample items contained $69 million of CIP costs for
    the construction of multiple USACE assets at the Washington Aqueduct Division
    of the USACE Baltimore District. The three sample items accumulated CIP costs
    that were funded by Treasury Loans in 1997, 1998, and 1999. Multiple
    construction projects were being funded within the three sample items including

                                         7
          the Basin Waste Recovery, Dalecarlia Pumping Station, Cabin John Bridge,
          Transmission and Storage Facilities, Dalecarlia Water Treatment Plant,
          McMillian Water Treatment Plant, Alternate Treatment Methods, and Water
          Quality Monitoring Projects. CIP costs of approximately $46 million for USACE
          projects were physically completed prior to September 30, 2002. The costs for
          the completed projects should have been transferred from the CIP account to the
          appropriate USACE real property account upon physical completion.


Unsupported CIP
          USACE activities could not reconcile CIP costs maintained in CEFMS to
          originating source data. For 151 sample items, CIP values totaling $1.195 billion
          could not be verified to originating source data. The unsupported CIP value
          included projects that originated in COEMIS as well as projects that originated in
          CEFMS.

          For our audit, we required the originating source data to support the CIP values
          reported in CEFMS. This was necessary because recent reviews by the General
          Accounting Office and the U.S. Army Audit Agency determined that the CEFMS
          could not be relied on for financial statement auditing purposes.1

          Unsupported CIP Originating in COEMIS. Approximately $1.022 billion of
          the unsupported CIP value involved sample items with costs that originated in
          COEMIS, which was the USACE financial management system prior to FY 1998.
          During FY 1998, USACE completed the deployment of CEFMS to all its
          divisions, districts, centers, laboratories, and field offices. As part of the
          deployment, the CIP values were transferred from COEMIS to CEFMS. For the
          work items that originated in COEMIS, USACE activities had difficulty
          identifying CIP values to originating source data in a timely manner. For some of
          the larger COEMIS work items, USACE activities were unable to provide source
          data during the 6-month time period from our initial data request to the
          completion of our audit fieldwork.
          For many of these work items, USACE activities were unable to identify the
          originating source data to support the CIP values currently maintained in CEFMS.
          For example, a funded work item, identified as “A00026,” at the New Orleans
          District contained $72 million of CIP costs for the Pontchartrain Lake Flood
          Control Project. The funded work item originated in COEMIS. New Orleans
          District accounting personnel could not provide any originating source data to
          support the CIP values currently maintained in CEFMS. In addition, project
          management personnel explained that a majority of the costs probably related to
          completed portions of the project. A complete reconciliation will be required to
          identify costs that related to completed portions of the project and to identify
          costs to the appropriate separable asset elements still being constructed.

1
    General Accounting Office Report Number GAO-02-589,”Corps of Engineers Making Improvements,
    But Weaknesses Continue,” June 10, 2002, and U.S. Army Audit Agency Report Number A-2002-0610-
    FFC, “Corps of Engineers Financial Management System General and Application Controls,” September
    30, 2002.

                                                   8
    Unsupported CIP Originating in CEFMS. Approximately $173 million of the
    unsupported CIP value involved sample items with costs that originated in
    CEFMS. The sample items that originated in CEFMS were generally better
    supported than those originating in COEMIS. However, CEFMS did not provide
    a distinct audit trail to the originating source data. We worked with USACE
    activities to develop a CEFMS query that helped associate the CIP values in the
    CEFMS detailed cost ledger to supporting source data. However, some USACE
    activities were unable to execute the query. Additionally, some USACE activities
    were unable to provide originating source data to support a significant amount of
    the CIP values maintained in CEFMS. For example, two sample items at the
    Pittsburgh District contained CIP costs totaling $131 million for the Lower
    Monongahela River Project. Although a majority of the costs originated in
    CEFMS, the Pittsburgh District was unable to provide originating source data to
    support $111 million of the $131 million CIP value.


Negative Balance CIP Amounts
    The CIP universe provided by USACE showed 129 items with negative balances
    totaling $41 million. We considered the entire $41 million balance to be in error
    because negative balances for asset accounts are an accounting anomaly.
    However, in an attempt to determine the causes of the negative balances, we
    selected and analyzed a non-statistical sample of 21 sample items with negative
    CIP balances at 21 USACE activities.

    The negative CIP balances were caused by a number of factors. For example, a
    funded work item at the New Orleans District had a CIP balance of negative
    $1 million. The funded work item was transferred out of CIP on
    September 29, 1999. However, an accrual posted in the prior accounting period
    was reversed on October 9, 2001, which resulted in a negative balance. The
    negative balance remained in the financial ledgers on September 30, 2002. For
    many of the items, USACE activities had to seek assistance from the CEFMS
    programmers at the USACE Engineering and Support Center, Huntsville,
    Alabama. Table 3 shows a complete listing of the factors resulting in negative
    CIP balances for the 21 sample items reviewed.



                     Table 3. Reasons for Negative CIP Balances
                 Reason for Negative Balance                    No. Items
    Error resulting from asset capitalization                             6
    COEMIS to CEFMS conversion                                            5
    No specific cause identified                                          5
    Error resulting from cost transfer process                            2
    Accrual reversed subsequent to asset capitalization                   2
    Error resulting from reversal of capital interest charges             1
     Total                                                               21

                                          9
Impact of Misreported CIP
     We projected that the $10.0 billion CIP beginning balance for the USACE, Civil
     Works, FY 2003 Principal Financial Statements was overstated by $4.3 billion.
     This represents a material management control weakness because the $4.3 billion
     misstatement represents approximately 43 percent of the CIP account balance.
     The projections were calculated using the sample results on the CIP assets that we
     determined had values that were in error or were not adequately supported. See
     Appendix A for details on the statistical sampling plan and results.

     The misclassified Construction-in-Progress significantly overstated the total
     assets and net position and understated expenses reported on the U.S. Army Corps
     of Engineers financial statements. Continued material misstatement of CIP will
     preclude USACE from gaining a favorable audit opinion on its financial
     statements.


Corrective Actions
     During the audit, USACE headquarters took actions to correct some of the errors
     we identified in the CIP account. Specifically, USACE provided the results of
     our 500 sample items to the USACE field sites for corrective actions. In addition,
     USACE headquarters sent two memorandums to its field sites tasking them to
     close out all dormant CIP projects, to expense all costs that did not result in the
     creation of a capital asset, and to correct all negative CIP balances. Further,
     USACE headquarters revised its existing CIP accounting policy to partially
     correct the deficiencies identified by our audit and provided a draft version to its
     field sites for implementation. These corrective actions represent positive steps
     towards achieving an accurate CIP balance.


Conclusion
     The $10 billion USACE CIP account represents a significant portion of the total
     assets reported on the USACE financial statements. The $4.3 billion of projected
     erroneous and unsupported CIP costs identified by this report greatly exceeds the
     materiality threshold generally established for financial statement audits.
     Misclassified CIP costs impact the total assets, net position, and expenses
     reported on the USACE financial statements. In addition, for CIP assets that will
     remain as USACE property upon completion, the costs accumulated in CIP will
     serve as a basis for the value of the real property when it is placed in service.
     Therefore, it is imperative that CIP assets be presented accurately and in
     accordance with GAAP. This will significantly aid USACE efforts to achieve a
     favorable audit opinion on its financial statements.




                                          10
Recommendations, Management Comments, and Audit
  Response
    A.1. We recommend that the Commander, U.S. Army Corps of Engineers
    perform a comprehensive review of the Construction-in-Progress account
    and perform the following corrective actions:

             a. Expense all costs that do not result in the creation of a capital
    asset.

             b. Transfer out all costs related to completed projects.

          c. Reconcile costs originating in the Corps of Engineers Management
    Information System to the appropriate separable asset elements of valid
    ongoing construction projects.

           d. Quantify and disclose all costs originating in the Corps of
    Engineers Management Information system that cannot be readily supported
    by originating source data.

             e. Correct all negative balances.

    Management Comments. The Commander, U.S. Army Corps of Engineers
    concurred with exceptions. The Commander stated that he considers bank
    stabilization work as a capital asset warranting Construction-in-Progress
    accounting treatment because it is part of the overall Mississippi River master
    plan for flood control cost avoidance, maintenance of the navigable waterways for
    commerce, and maintenance of or enhancement of property values. The
    Commander also stated that Congress mandated Construction-in-Progress
    accounting for Columbia and Snake River system Fish Mitigation study costs.
    However, the Commander agreed to make a statement-level adjustment to the
    FY 2003 financial statements for costs related to fish mitigation studies. In
    addition, the Commander stated that aggressive actions were initiated in April
    2003 to correct the other deficiencies identified in the Construction-in-Progress
    account. Specifically, data mining with specially developed queries were
    complimented with information papers and a monthly upward reporting process.
    Internal Review auditors have monitored and assisted the program managers and
    accountants as they cleansed the Construction-in-Progress accounts. The
    Commander stated that corrective actions were completed on September 30,
    2003.

    Audit Response. We do not agree with the Commander’s comments concerning
    the treatment of bank stabilization. The Commander did not identify actions to
    expense costs related to bank stabilization work. We agree with the
    Commander’s comments that bank stabilization work represents maintenance of
    the navigable waterways but do not agree that it results in a capital asset that
    economically benefits the U.S. Army Corps of Engineers. The Mississippi River
    is not reported as an asset on the U.S. Army Corps of Engineers Balance Sheet.
    Therefore, maintenance on its banks should not be capitalized. We request that

                                         11
the Commander, U.S. Army Corps of Engineers provide management comments
on the final report by January 6, 2004.

A.2. We recommend that the Commander, U.S. Army Corps of Engineers
reissue existing Corps of Engineers policy for Construction-in-Progress
financial reporting to:

       a. Clarify that the following expense-type events not resulting in the
creation of a capital asset should be expensed in the period incurred:
reimbursements to local sponsors for completed work, fish mitigation
programs, and bank stabilization work (including revetment mats).

       b. Require the transfer of completed projects or separable asset
elements from the Construction-in-Progress account in a manner consistent
with the DoD Financial Management Regulation.

Management Comments. The Commander, U.S. Army Corps of Engineers
concurred and stated that interim guidance was issued in the form of information
papers. Additionally, the Commander stated that Engineering Regulation 37-2-10
policy will be updated based on the corrective action guidance that was issued to
subordinate commands in response to Recommendation A.1. The Commander
estimated that the corrective actions would be completed by June 30, 2004.

A.3. We recommend that the Commander, U.S. Army Corps of Engineers
modify the Corps of Engineers Financial Management System to allow for a
distinct audit trail identifying Construction-in-Progress values to all
originating source data.

Management Comments. The Commander, U.S. Army Corps of Engineers
concurred and stated that the Corps of Engineers Financial Management System
Development Team has developed the requested report.

A.4. We recommend that the Commander, U.S. Army Corps of Engineers
issue policy requiring U.S. Army Corps of Engineers activities to retain
originating source data to support Construction-in-Progress values
maintained in the Corps of Engineers Financial Management System.

Management Comments. The Commander, U.S. Army Corps of Engineers
concurred and stated that interim guidance was issued in the form of information
papers. Additionally, the Commander stated that action will be taken to have his
Headquarters Corporate Information Records Management Office issue updated
guidance regarding the need for long-term retention valuation documents related
to capital assets. The Commander estimated that the corrective actions would be
completed by June 30, 2004.




                                   12
            B. Financial Reporting of Non-Federal
               Cost Share Projects
            The USACE misreported costs relating to non-Federal cost share projects
            as CIP. The costs were misreported because USACE believed that all
            assets under construction that met the USACE capitalization criteria,
            regardless of the ultimate owner, were required to be financially reported
            as CIP on the USACE financial statements until completed. However, the
            USACE methodology did not comply with GAAP. As a result of this
            deficiency, we projected that the $10.0 billion CIP beginning balance for
            the FY 2003 USACE Financial Statements was overstated by $7.8 billion
            when combined with the deficiencies for Federal cost share items in
            finding A of this report. By capitalizing costs for non-Federal cost share
            projects as CIP, USACE significantly overstates the total assets and net
            position and understates current period expenses reported on the USACE
            financial statements.


Non-Federal Cost Share Projects
     A significant portion of the USACE mission is to provide engineering and
     construction management support for non-Federal entities. In many cases, the
     non-Federal entity (also referred to as the local sponsor) shares a portion of the
     costs up front and throughout the project. The USACE uses its CIP account to
     accumulate labor, material, and overhead costs for these non-Federal cost share
     projects. Upon completion, the constructed property is generally transferred
     without reimbursement to the non-Federal agency that shared a portion of the
     costs. The constructed property is not recorded as USACE real property and does
     not result in a future economic benefit to the USACE. For purposes of our audit,
     we categorized these projects as non-Federal cost share projects.


Asset Capitalization Criteria
     GAAP for Asset Capitalization. GAAP define fixed assets as tangible property
     that is to be used in a productive capacity within the business and will benefit the
     enterprise for a period of more than 1 year. It is necessary to allocate the cost of
     these assets to the future periods benefited in accordance with the matching
     principle. The matching principle dictates that efforts (expenses) be matched with
     accomplishments (revenues) whenever it is reasonable and practical to do so. The
     cost of an asset expected to provide benefits for more than one accounting period
     must be allocated over all of the accounting periods during which the asset is used
     because the asset contributes to the generation of revenue throughout its useful
     life. This is accomplished by depreciating the asset over a predetermined period
     of time that it is expected to provide benefits. When no future benefit is
     anticipated or no connection with revenue is apparent, costs are generally charged
     to the current period as expenses.

                                         13
     DoD Asset Capitalization Policy. The DoD asset capitalization policy is defined
     in DoD 7000.14-R, the DoD FMR, volume 4, “Accounting Policy and
     Procedures,” September 1999. The DoD FMR defines a DoD asset as an
     economic resource available to DoD that has three essential characteristics: it has
     a capacity to contribute to the accomplishment of the DoD mission (also referred
     to as service potential), DoD can use the asset or control access to the asset, and
     the transaction or event giving rise to DoD right to, or financial control over, the
     asset has already occurred.

     Specific guidance on the financial reporting of DoD CIP is provided in
     DoD 7000.14-R, the DoD FMR, volume 4, chapter 6, “Property, Plant and
     Equipment,” August 2000. According to the DoD FMR, CIP costs are
     accumulated by USACE when they are responsible for the construction. The
     DoD Component that is to receive the constructed property shall report CIP
     amounts on their financial statements, regardless of what type of funds were used
     to fund the construction. Such CIP balances shall be provided annually by
     USACE to the appropriate reporting DoD Component along with supporting
     documentation in sufficient detail to reconcile the CIP balances by project and
     funding source. In addition, USACE is required to make any additional data
     available to the reporting DoD Component upon request. Although the DoD
     FMR does not separately address projects constructed for non-Federal entities, the
     guidance does indicate that the agencies that will ultimately receive the
     constructed property should record the related CIP costs on their books. The
     USACE is responsible for providing the CIP balances to the appropriate agencies
     on an annual basis.

     USACE Asset Capitalization Policy. The USACE policy for the financial
     reporting of CIP is provided in USACE memorandum, “Revised Capitalization
     Guidance for Civil Works Personal Property,” September 29, 1997. The USACE
     policy requires that all costs associated with the initial construction of a capital
     asset and all costs associated with the construction of an addition and/or
     betterment to an existing capital asset will be capitalized as CIP. The USACE
     policy does not distinguish between projects that will remain as Federal
     Government property and projects that will be transferred to a non-Federal
     sponsor upon completion.


Capitalization of Non-Federal Cost Share Projects
     The USACE erroneously capitalized costs relating to non-Federal cost share
     projects as CIP. In the audit sample, 345 items had CIP costs valued at
     $3.6 billion related to non-Federal cost share projects. For example, a funded
     work item, identified as “A00069,” at the Philadelphia District contained
     $15 million of CIP costs for the Molly Ann’s Brook local flood control protection
     project. Including our sample item, total project costs of approximately
     $28 million were capitalized as USACE CIP at September 30, 2003. The Molly
     Ann’s Brook is a tributary of the Passaic River located in the municipalities of
     Haledon, Prospect Park, and Patterson, New Jersey. The project involves
     2.5 miles of channel modification, bridge modifications, and the removal of a
     condemned building. The project started in 1993 and upon completion will be

                                          14
    transferred to the non-Federal sponsor, the New Jersey Department of
    Environmental Protection, for continued operation and maintenance. This project
    does not involve the construction of any assets that will be owned or that will
    provide future economic benefits to the USACE. The non-Federal sponsor
    purchased the property containing the condemned building and the County of
    Passaic New Jersey owns the bridge requiring repairs. Although these projects
    serve an important purpose for the non-Federal sponsors, they should not be
    recorded as CIP on the USACE financial statements.

    USACE believed that all assets under construction meeting the USACE
    capitalization criteria, regardless of the ultimate owner, were required to be
    financially reported CIP on the USACE financial statements until completed.
    USACE headquarters representatives stated that they capitalized the costs for
    non-Federal cost share projects as CIP because they wanted to maintain
    consistency with the reporting of Military CIP. Additionally, USACE
    representatives stated they believed that they had a legal responsibility for the
    assets being constructed and were required to capitalize the costs as CIP.
    However, the USACE methodology did not comply with GAAP because the
    constructed property does not result in a future economic benefit to the USACE.
    Additionally, the USACE methodology for reporting Military CIP did not comply
    with the DoD FMR, which requires the DoD Component that is to receive
    property constructed by USACE to report CIP amounts on their financial
    statements.


Impact on Financial Statements
    We projected that as a result of capitalizing non-Federal cost share projects, the
    $10.0 billion CIP balance reported on the FY 2002 USACE Financial Statements
    was misstated by $7.8 billion when combined with the impact of the deficiencies
    in finding A of this report.

    Capitalization of non-Federal cost share projects as USACE CIP significantly
    overstates the total assets and net position and understates current period expenses
    reported on the USACE financial statements. In the case of non-Federal cost
    share projects, there is no anticipated future benefit to USACE. Upon
    completion, the constructed asset is transferred to a non-Federal sponsor without
    reimbursement. There is no connection to future revenues. Therefore, the costs
    related to non-Federal cost share projects should be expensed when incurred.

    In the Analysis of Financial Statements section of the FY 2002 USACE, Civil
    Works, Principal Financial Statements, net position (equity) is described as the
    residual interests of the assets of the entity that remains after deducting its
    liabilities. For FY 2002, USACE, Civil Works, net position was described as
    amounting to $40.8 billion and as representing almost a $2 billion, or 5 percent,
    increase over FY 2001. If the $7.8 billion of errors resulting from non-Federal
    cost share assets were considered, the FY 2002 USACE, Civil Works, net position
    would be reduced to $33 billion.



                                        15
Recommendation, Management Comments, and Audit
  Response
    B. We recommend the Commander, U.S. Army Corps of Engineers expense
    all costs for constructing assets that will be transferred to a non-Federal
    sponsor upon completion.

    Management Comments. The Commander, U.S. Army Corps of Engineers,
    partially concurred and agreed to make a statement-level adjustment to the
    FY 2003 financial statements for costs related to non-Federal cost share projects.
    However, the Commander stated that cost related to non-Federal cost projects
    warrant Construction-in-Progress accounting treatment and that an independent
    review is necessary to resolve the action for FY 2004. In addition, the
    Commander stated that in the near future his staff plans to participate with the
    DoD Comptroller in discussions the Federal Accounting Standards Advisory
    Board regarding the accounting treatment for non-Federal cost share projects.

    Audit Response. The Commander’s comments are responsive for FY 2003
    financial reporting. We plan to address this issue further as part of our FY 2004
    audit and will consider any future decisions by the Federal Accounting Standards
    Advisory Board.




                                        16
Appendix A. Scope and Methodology
   The audit was performed to meet the requirements of Public Law 101-576, the
   “Chief Financial Officers Act of 1990,” November 15, 1990, as amended by
   Public Law 103-356, the “Federal Financial Management Act of 1994,”
   October 13, 1994. For this part of the audit, we determined the reliability of the
   USACE, Civil Works, CIP assets as presented in the General PP&E line item in
   the FY 2002 and 2001 comparative consolidated financial statements and whether
   the financial statements were prepared in accordance with GAAP.

   We performed the audit at USACE headquarters and field locations. Specifically,
   we analyzed the CIP values for a statistical sample of 500 CIP assets valued at
   $5.8 billion. We accomplished our audit at 38 USACE activities using a
   combination of site visits and data call methodology. We determined whether the
   CIP values were accurately reported in accordance with GAAP and were
   supported by originating source data.

   We used statistical sampling methods to test USACE management assertions
   regarding the valuation and existence of the CIP account. We interviewed
   USACE Project Managers and Resource Management personnel at each activity
   to obtain background and status on each project reviewed. We also reviewed
   project fact sheets, pictures, and other related documentation for the various
   projects. Additionally, we reviewed all applicable documentation supporting the
   CIP values including, but not limited to: contractor pay estimates, contractor
   invoices, travel voucher settlements, and Military Interdepartmental Purchase
   Requests.

   Our scope was limited in that we did not physically verify the existence or
   completeness of the CIP assets. In addition, we did not validate the labor and
   overhead values or the capital interest calculations for each CIP project. We
   performed this audit from September 2002 through June 2003 in accordance with
   generally accepted government auditing standards.

   USACE provided a universe of CIP assets extracted from CEFMS on
   September 30, 2002. The CIP assets each represented the accumulation of
   capitalized CIP costs identified by a unique CEFMS work item code and/or
   funding account number. We reconciled the $10.118 billion CIP universe
   provided by USACE to the $10.043 billion CIP balance reported on the financial
   ledgers and identified a $75 million variance. After we had selected the statistical
   sample, USACE informed us that they had extracted the CIP universe prior to the
   close of business on September 30, 2002. USACE provided the revised universe,
   and we reconciled it to the financial ledgers without a material variance. We
   segregated the universe in to CIP assets with positive and negative values. We
   used a non-statistical sampling methodology to evaluate the CIP assets with
   negative CIP balances totaling $41 million. We used a statistical sampling
   methodology to evaluate the CIP assets with positive CIP balances totaling
   $10.159 billion.



                                        17
Sample Design. The Inspector General, DoD, Quantitative Methods Division
used a stratified variable sampling methodology and a 95 percent confidence level
to select a statistical sample of CIP assets from a universe of 17,801 CIP assets
valued at $10.159 billion. The sample was composed of 500 CIP assets, valued at
$5.827 billion. A breakout of the 500 sample items and CIP value by USACE
activity reviewed is provided in Appendix B.

Sample Results. Inspector General, DoD statisticians calculated the following
projections for the $10.159 billion CIP balance USACE reported for FY 2002.
The projections were calculated using the sample results we provided on the CIP
assets that we determined had values that were misclassified or were not
adequately supported.

       Projections Not Considering Non-Federal Cost Share Projects as
Errors. We are 95 percent confident that the FY 2002 USACE CIP balance was
between $4.033 billion and $4.633 billion overstated. These results did not
consider CIP costs for non-Federal cost share projects as errors.

                        95 Percent Confidence Interval
 Non-Cost Share        Lower Bound        Point Estimate         Upper Bound
Not Supported or
Misclassified          $4.033 billion       $4.333 billion       $4.633 billion



        Projections Considering Non-Federal Cost Share Projects as Errors.
We are 95 percent confident that the FY 2002 USACE CIP balance was between
$7.052 billion and $8.128 billion overstated. These results considered CIP costs
for non-Federal cost share projects as errors. The errors resulting from non-
Federal cost share items were combined with the errors resulting from Federal
cost share items identified in finding A of this report.

                        95 Percent Confidence Interval
   Cost Share          Lower Bound        Point Estimate         Upper Bound
Not Supported or
Misclassified          $7.052 billion       $7.815 billion       $8.128 billion



Use of Computer-Processed Data. We relied on computer-processed data from
the CEFMS to determine the FY 2002 CIP universe for statistical sampling
purposes. We did not test the CEFMS general and application controls. We were
able to reconcile the FY 2002 CEFMS CIP universe to the USACE trial balance
for the corresponding period ending September 30, 2002, without a material
variance. Additionally, we performed other tests on the data to determine the
accuracy and reliability of the CIP account balance. For our audit, we required
the originating source data to support the CIP values reported in CEFMS. This
was necessary because recent reviews by the General Accounting Office and the
U.S. Army Audit Agency determined that the CEFMS could not be relied on for
financial statement auditing purposes.

                                   18
    Use of Technical Assistance. The Technical Director, Branch Chief, and
    Operations Research Analysts from the Inspector General, DoD, Quantitative
    Methods Division provided assistance in developing the statistical sample and
    calculating the statistical projections.

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in DoD. This report provides coverage of
    the Financial Management high-risk area.


Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996,
    and DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”
    August 28, 1996, require DoD organizations to implement a comprehensive
    system of management controls that provides reasonable assurance that programs
    are operating as intended and to evaluate the adequacy of the controls.

    Scope of the Review of the Management Control Program. We reviewed the
    adequacy of USACE management controls over the financial reporting of CIP.
    We reviewed management’s self-evaluation applicable to those controls. We
    reviewed the FY 2002 Annual Statement of Assurance issued by USACE to
    determine whether the issues addressed in this report had been reported as
    material management control weaknesses.

    Adequacy of Management Controls. We identified material management
    control weaknesses, as defined by DoD Instruction 5010.40, related to the
    financial reporting of CIP. The details of the management control weaknesses are
    provided in detail in the Finding sections of this report. All of the
    recommendations in this report, if implemented, will improve the accuracy and
    reliability of USACE financial reporting of CIP. A copy of the report will be
    provided to the senior official responsible for USACE management controls.

    Adequacy of Management’s Self-Evaluation. USACE officials did not identify
    CIP financial reporting as an assessable unit and, therefore, did not identify or
    report the material management control weaknesses identified by the audit.


Prior Coverage
    During the last 5 years, the General Accounting Office, Inspector General, DoD,
    and the U.S. Army Audit Agency have issued several reports discussing the
    USACE, Civil Works, financial statements. Unrestricted General Accounting
    Office reports can be accessed over the Internet at http://www.gao.gov.
    Unrestricted Inspector General of the Department of Defense (IG DoD) reports
    can be accessed at http://www.dodig.osd.mil/audit/reports. Unrestricted Army
    Audit Agency reports can be accessed at https://www.aaa.army.mil/reports/.htm,
    which is accessible on the extranet to military domains and General Accounting
    Office only.

                                       19
Appendix B. Breakout of 500 Statistical Sample
            Items by Activity Reviewed
                                                           No.
                     USACE Activity Reviewed              Items    CIP Value
    Los Angeles District                                      34   $1,035,048,245
    Louisville District                                       33      634,413,997
    New Orleans District                                      63      510,654,654
    Portland District                                         25      441,331,423
    Baltimore District                                        14      303,549,744
    New York District                                         40      280,477,110
    Nashville District                                        15      252,583,566
    Jacksonville District                                     27      221,654,628
    Pittsburgh District                                       16      221,027,836
    Little Rock District                                       7      198,669,961
    Galveston District                                        20      179,619,397
    Walla Walla District                                       9      171,266,386
    Memphis District                                          10      149,879,898
    Sacramento District                                       24      143,776,108
    Chicago District                                          16      134,721,583
    Huntington District                                       14      130,422,861
    Omaha District                                            14      122,543,399
    Vicksburg District                                        18      111,726,859
    Washington Aqueduct Division                               3       69,197,512
    New England District                                       5       65,079,425
    St. Paul District                                          8       64,550,894
    Kansas City District                                       5       54,529,625
    Tulsa District                                             7       50,960,384
    Norfolk District                                           4       43,479,024
    Mobile District                                            9       39,786,678
    Fort Worth District                                        5       30,754,278
    Seattle District                                           7       24,811,440
    St. Louis District                                        15       23,323,216
    Honolulu District                                          5       21,101,232
    Albuquerque District                                       7       17,662,468
    Philadelphia District                                      2       16,526,182
    USACE Headquarters                                         5       16,431,191
    Alaska District                                            1       16,139,650
    Wilmington District                                        2       13,371,165
    San Francisco District                                     3        6,715,495
    Rock Island District                                       4        5,334,488
    Vicksburg Engineering Research & Development Center        2        2,098,000
    Detroit District                                           2        1,990,079
     Total                                                   500   $5,827,210,081


                                       20
Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Assistant Secretary of the Army (Civil Works)
Commander, U.S. Army Corps of Engineers
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Auditor General, Department of the Air Force

Unified Command
Inspector General, U.S. Joint Forces Command

Non-Defense Federal Organization
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform

                                          21
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member (cont’d)
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                        22
U.S. Army Corps of Engineers Comments




                     23
24
25
26
Team Members
The Defense Financial Auditing Service Directorate, Office of the Deputy
Inspector General for Auditing of the Department of Defense prepared this report.
Personnel of the Office of the Inspector General of the Department of Defense
who contributed to the report are listed below.

Paul J. Granetto
Richard B. Bird
James L. Kornides
Amy J. Frontz
Anthony C. Hans
Kevin C. Currier
Barry N. Harle
Ted R. Paulson
James C. Darrough
Brian L. Henry
Brian M. Stumpo
Frank C. Sonsini
Lusk F. Penn
James Hartman
Dharam V. Jain
Ann Thompson
